CERTIFICATE OF COMPLIANCE
Case No.20-1392
Caption: Jason Fowler and Micah Perkins v.
Brittany Irish, Individually and as
Personal Representative of the Estate of
Kyle Hewitt, and Kimberly Irish
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 5,986 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 5, 2021.
.\

Nicole Garcia
Record Press, Inc.

Sworn to before me on
May 5, 2021
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County

c~lJ[i/°24
Notary Public

